March 31, 2003

MEMORANDUM FOR:            EMILY STOVER DeROCCO
                           Assistant Secretary for
                            Employment and Training



FROM:                      ELLIOT P. LEWIS
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Report on Evaluation of Agreed-Upon Procedures
                           Job Training Partnership Act (JTPA) Grants
                           Awarded to the State of Florida
                           Report No. 04-03-002-03-340


The attached State of Florida agreed-upon procedures (AUP) report was prepared by
the public accounting firm of R. Navarro and Associates, Inc. (Navarro). Our
evaluation of the AUP raises serious concerns about the adequacy of the State’s
accounting for JTPA funds. The concerns form the basis for recommendations
discussed on page 3 of this evaluation report.

BACKGROUND

Florida was among 10 states we selected to determine if Job Training Partnership
(JTPA) grants had been properly closed out, in accordance with the Employment and
Training Administration’s (ETA) instructions, and if costs reported on Florida’s closeout
report were supported and reasonable. Navarro reviewed Florida’s Program Year (PY)
1997 through 1999 JTPA awards and applied procedures at the Agency for Workforce
Innovation (AWI), Florida’s JTPA administrative agency, and at two of Florida’s
subrecipients.

ISSUES

A JTPA closeout package had not been prepared when Navarro visited Florida, in
February 2002, some 14 months beyond ETA’s December 31, 2000 deadline for
submitting JTPA closeout information. Lacking a closeout package, Navarro reviewed
information reported on what were identified as AWI’s final JTPA Financial Status


                                           1
Reports (FSRs), submitted to ETA. AWI informed Navarro the reports were prepared
from a system maintained by the Agency. However, although provided the
opportunity, AWI was unable at the time to provide financial data that supported
amounts reported on the final FSRs. Navarro obtained financial information from the
Florida Accounting Information Resource (FLAIR) system, the State’s official
accounting and budgetary control system, and compared FLAIR expenditures to those
reported on the final FSRs.

After AWI submitted a JTPA closeout package to ETA in June 2002, nearly 18 months
past the submission deadline, Navarro compared JTPA information reported in the
closeout package to financial data contained in the FLAIR and to the final FSRs.
Significant discrepancies in financial information reported in the FSRs, FLAIR and
closeout package were identified. Specifically:

   •   The closeout package contained an additional $22.6 million in expenditures not
       reported to ETA in earlier “final” FSRs;

   •   JTPA expenditures recorded in the FLAIR were $12.1 million less than those
       reported to ETA in the closeout package; and

   •   Amounts totaling $17.9 million, identified as “transfers” in the FLAIR, were
       included as expenditures on the FSRs, and could not be substantiated as
       allowable JTPA costs.

In addition, Navarro found:

   •   Administrative cost offsets of $1.3 million, resulting from prior audit exceptions,
       were to have been applied against PY 1999 funds; however, they were not
       reflected in the closeout;

   •   The State was unable to provide us with subrecipients’ final JTPA financial
       reports, which were necessary to have prepared the State’s closeout package; and

   •   Numerous findings reported in several State single audits indicated weaknesses
       in JTPA accounting and reporting procedures were not corrected.

AWI’s response to the draft report indicates, as Navarro had been told, a subsidiary
ledger was used to prepare Federal reports that contained information not in the State’s
official accounting system. The State says it is now in the process of reconciling the two
systems. The response also indicates the report’s conclusions are the result of Navarro’s
failure to review the appropriate records. Most of the subrecipients’ reports are now
said to be available for review. The State also contends transfers were incorrectly
presented in our report, and some differences between amounts previously reported to
ETA and closeout reports resulted from mistakenly reporting JTPA-related
expenditures as Workforce Investment Act costs.
The State was provided ample opportunity to supply Navarro all relevant data, but did
not do so. Also, many of the explanations provided by the State contradict information
Navarro reviewed and evidence they gathered.

RECOMMENDATIONS

Because of the significance of our concerns, we are recommending ETA ensure that the
State obtains an accounting of its JTPA activities. The accounting should (1) determine
the accuracy of JTPA closeout information, (2) ensure only allowable costs were
reported, and (3) address other concerns discussed in the attached AUP report.

We request a response to this evaluation within 60 days addressing your actions on our
recommendations. We will track the status of corrective action through the resolution
process. You are responsible for transmitting official copies of this report. However,
we have provided a courtesy copy of the AUP report to Susan Pareigis, Director,
Agency for Workforce Innovation, State of Florida.

I would be pleased to provide you a briefing on this evaluation report. My staff will
contact your office to arrange a meeting time that is convenient for you. In the
meantime, please contact me at (202) 693-5170, or Robert Wallace, Regional Inspector
General for Audit in Atlanta, at (404) 562-2342, if you have any questions concerning
this evaluation or the attached AUP report.

Attachment
                                         Attachment




       U.S. DEPARTMENT OF LABOR
   EVALUATION OF GRANT CLOSEOUT
         PRACTICES APPLIED TO
 JOB TRAINING PARTNERSHIP ACT GRANTS

GRANTS AWARDED TO THE STATE OF FLORIDA

  INDEPENDENT ACCOUNTANTS== REPORT
 ON APPLYING AGREED-UPON PROCEDURES



    JULY 1, 1997 THROUGH JUNE 30, 2000




     R. NAVARRO & ASSOCIATES, INC.
                                                   TABLE OF CONTENTS



ACRONYMS .................................................................................................................................iii

INDEPENDENT ACCOUNTANTS= REPORT ON APPLYING AGREED-UPON
PROCEDURES............................................................................................................................... 1

SUMMARY OF FINDINGS........................................................................................................... 2

BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY .......................................... 4

          BACKGROUND ................................................................................................................ 4

          OBJECTIVES, SCOPE AND METHODOLOGY ............................................................. 4

PROCEDURES AND FINDINGS.................................................................................................. 5

STATE OF FLORIDA’S RESPONSE AND AUDITOR’S COMMENTS.................................. 13

EXHIBIT I – COMPLETE TEXT OF THE STATE OF FLORIDA’S RESPONSE.................... 14




                                                                     ii
                                   ACRONYMS



CFR     Code of Federal Regulations
CMIA    Cash Management Improvement Act
DOL     U.S. Department of Labor
ETA     Employment and Training Administration
FLAIR   Florida Accounting Information Resource system
FSR     Financial Status Report
FY      Fiscal Year
JTPA    Job Training Partnership Act
NOO     Notice of Obligations
OIG     Office of Inspector General
PY      Program Year
WIA     Workforce Investment Act




                                       iii
Mr. Elliot P. Lewis
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor

                       INDEPENDENT ACCOUNTANTS= REPORT
                      ON APPLYING AGREED-UPON PROCEDURES

We have performed the procedures enumerated in the “Procedures and Findings” section of this
report. These procedures were agreed to by the U.S. Department of Labor (DOL), Office of
Inspector General (OIG), solely to assist you in evaluating the closeout of the State of Florida=s
Job Training Partnership Act (JTPA) grants awarded by the DOL Employment and Training
Administration (ETA) from July 1, 1997 through June 30, 2000.

Management of the State of Florida is responsible for closing JTPA grants in accordance with
applicable regulations and requirements established by ETA. ETA is responsible for processing
and certifying grant closure, and recording final obligation, expenditure and payment information
in the DOL=s general ledger.

This agreed-upon procedures engagement was performed in accordance with the attestation
standards established by the American Institute of Certified Public Accountants and Government
Auditing Standards, issued by the Comptroller General of the United States. The sufficiency of
these procedures is solely the responsibility of your office as the specified user of the report.
Consequently, we make no representation regarding the sufficiency of the procedures performed
either for the purpose for which this report has been requested or for any other purpose.

The results of our procedures are described in the “Procedures and Findings” section of this
report. We were not engaged to, and did not perform an examination, the objective of which
would be the expression of an opinion on the accompanying information obtained from the
respective entities. Accordingly, we do not express such an opinion. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

Management of the State of Florida qualified their representations to the OIG as to the
completeness and accuracy of JTPA closeout reports and related supporting documentation due
to a reorganization within the State which transferred responsibility for the JTPA program to a
new State agency. Management’s representations are also qualified as to certain data subjected
to our procedures that were disputed in management’s written response to the draft report.

This report is intended solely for the information and use of the DOL, OIG, and is not intended to
be, and should not be used, by anyone other than the specified party.

July 1, 2002
                                  SUMMARY OF FINDINGS


The Job Training Partnership Act (JTPA) closeout package provided by the State of Florida to
the U.S. Department of Labor (DOL), Employment and Training Administration (ETA), was
untimely, in that it was submitted approximately 1 ½ years after the deadline for closing the
Program Year (PY) 1998 and PY 1999 grants. In fact, the closeout package was not available at
the time we visited the State (February 2002), but was provided to ETA several months later, at
the end of June 2002. The closeout reflected total JTPA expenditures that varied significantly
from final Financial Status Reports (FSRs) previously submitted by the State. Total expenditures
on the closeout were $22.6 million greater than those previously reported, and did not
consistently reflect funds transferred between JTPA titles, as reported on the FSRs. In addition,
the State reported $7.9 million for the PY 1999 youth funding which had previously been
reported as transferred to the Workforce Investment Act (WIA) program, and we were unable to
determine if required administrative offsets were appropriately applied to the closeout in
accordance with DOL instructions.

The JTPA expenditures reported by the State of Florida on the closeout package did not agree to
amounts recorded in the State=s official accounting system. Reported expenditures exceeded
recorded amounts by $12.1 million, however, the expenditures recorded in the accounting
records included $17.9 million labeled as Atransfers” (rather than operating or capital
expenditures). We were unable to determine the nature of the charges recorded in the transfer
accounts, and whether they represented allowable JTPA expenditures or inter-title transfers
(which should always net to zero). The amounts in these accounts did not agree to inter-title
transfers reported on final FSRs.

Florida’s single audit reports have consistently included reportable conditions and material
weaknesses over the past few years, many of which remain unresolved. These include:

S      Expenditures reported on FSRs did not agree and were not reconciled to expenditures
       recorded in the accounting records.
S      The accounting system for grant expenditures was deficient and considered to be a
       material weakness in internal control. This finding resulted in a qualified opinion on
       compliance for the JTPA cluster programs.
S      The State could not demonstrate proper accountability for Federal funds to ensure that
       funds are drawn from appropriate Federal awards, only as needed to meet immediate
       disbursement needs, and utilized for appropriate activities.
S      Federal funds drawn down by the State could not be correlated with the expenditure of
       such funds, and the State could not demonstrate compliance with the Cash Management
       Improvement Act (CMIA).
S      Equipment purchased by the State with JTPA funds was used for other programs, and the
       State did not have a method for allocating these costs among the benefiting programs.
S      Salaries and related costs were allocated based on budgets rather than actual costs.




                                                2
Florida generally did not concur with the findings and information presented in this report,
however, its written response did not provide additional information that would change the
findings as stated. A summary of its written response and the corresponding OIG comments are
provided in a separate section of this report.




                                              3
              BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY


Background

The JTPA was enacted in 1982 to provide job training programs which would afford
disadvantaged youth and adults with the training necessary to obtain productive employment.
The JTPA program was repealed on June 30, 2000, when ETA implemented a successor
program, authorized by the Workforce Investment Act. The closeout of active JTPA grants
began in July 1999, with final closeouts due no later than December 31, 2000. Unspent funds
from the PY 1998 and PY 1999 JTPA State grants were authorized for transition into the WIA
program.

All JTPA closeout information is sent to the DOL, ETA, Office of Grant and Contract
Management, Division of Resolution and Appeals. According to 20 CFR, Part 627.485, JTPA
grants should normally have been closed within 90 days after the time limitation for expenditure
of JTPA funds. For PY 1997 grants, the 90-day limitation expired September 30, 2000.
However, in certain instances, ETA extended the reporting beyond that specified in the program
regulations. According to instructions set forth by ETA in the JTPA Financial Closeout
Technical Assistance Guide, final JTPA financial reports for PY 1998 and PY 1999 grants should
have been submitted no later than December 31, 2000.

Objectives, Scope and Methodology

In general, our procedures were designed to determine if: the State of Florida closed its JTPA
grants on a timely basis in accordance with ETA instructions; amounts reported in the closeout
packages and/or the final cost reports were reasonable and supported by the State=s and
subrecipients’ accounting records; and to determine if there were unresolved audit findings
pertaining to JTPA awards.

Our agreed-upon procedures include the JTPA funds awarded to the State of Florida for PYs
1997, 1998 and 1999, and FYs 1997 and 1998. Procedures were initially applied to grant
activities reported by the State and two subrecipients, Okaloosa Walton Jobs and Education
Partnership Inc., and Polk County Workforce Development Board Inc., as of December 31, 2001.
However, we were subsequently provided a copy of the final JTPA closeout package submitted
to ETA, dated June 26, 2002. We incorporated the final closeout information into our
procedures.




                                               4
                            PROCEDURES AND FINDINGS



1.   Identify the State’s JTPA grants to be included in the scope of these procedures, and
     the obligations and final reported expenditures related to each.

     The JTPA grants awarded to Florida and included in our procedures are (expenditure
     numbers are based on the final closeout package):

                             Federal       Total Reported     Inter-title        Net
      Year and Title        Obligations     Expenditures      Transfers      Expenditures
      FY 97 II B           $ 37,105,802       $ 37,105,802        0           $ 37,105,802
      PY 97 II & III         92,783,055          92,783,055       0            92,783,055
      PY 97 III D             1,000,000            618,938        0               618,938
      FY 98 II B             34,961,391          33,439,638       0            33,439,638
      PY 98 II & III         85,518,860          78,535,907       0            78,535,907
      PY 98 III                400,000             326,843        0               326,843
      PY 99 Adult            78,980,707                  0        0                     0
      PY 99 Youth            41,357,488           7,918,469       0             7,918,469
       Total              $ 372,107,303      $ 250,728,652        0          $ 250,728,652



2.   Determine if the JTPA grants awarded to the State were closed on a timely basis in
     accordance with ETA instructions.

     The State of Florida did not submit required closeout information to ETA, in accordance
     with the December 31, 2000, deadline. In fact, the closeout package had not been
     prepared at the time we visited the State (February 2002). We were later informed that a
     closeout would be submitted to ETA in June 2002. We were subsequently provided with
     a copy of the closeout package, dated June 26, 2002.


3.   Inspect the closeout information reported to ETA, and determine if the information
     appears reasonable based on data previously reported on final FSRs.

     The expenditures reported on the closeout did not appear reasonable. We performed this
     procedure using final FSRs for PY 1997, FY 1997, FY 1998, and PY 1998 awards, as
     well as the December 31, 2001, FSRs for the PY 1999 awards. We compared the
     information reported on the closeout to that on the FSRs.




                                             5
     Significant variances were noted as follows:


                               Expenditures Per FSRs             Expenditures
                          Total                                      Per          Increase
                       (computed)    Transfers       Net          Closeout       (Decrease)
        FY 97 IIB       $37,105,802 $(7,206,695) $29,899,107      $37,105,802     $7,206,695
        PY97 II/III      88,268,556   7,206,695     95,475,251     92,783,055    (2,692,196)
        PY97 III D          603,765          0        603,765         618,938         15,173
        FY 98 II B       34,961,391 (4,765,305)     30,196,086     33,439,638      3,243,552
        PY 98 II/III     66,822,481   4,765,305     71,587,786     78,535,907      6,948,121
        PY 98 III D         326,843          0        326,843         326,843                 0
        PY 99 Adult               0          0              0               0                 0
        PY 99 Youth               0          0              0       7,918,469      7,918,469
         Subtotal      $228,088,838         $0 $228,088,838 $250,728,652         $22,639,814
        PY 99 III D       2,213,062          0       2,213,062    Not reported
         Total         $230,301,900         $0 $230,301,900

     In total, the State reported an additional $22.6 million on the closeout that was not
     previously reported to ETA. Of this amount, $14.7 million was for programs where the
     final cost reports had been previously submitted (dated between May 2000 and December
     2000), and $7.9 million was for the PY 1999 grant where the prior FSR information
     indicated that all of the funds were transferred to the WIA program. In addition, the
     closeout package did not reflect inter-title transfers. For example, the closeout did not
     reflect $7.2 million previously reported as transferred from the FY 97 IIB program to the
     PY 97 II/III program.

     Correspondence and attachments provided with the closeout indicated that the State had
     agreed to apply approximately $1.3 million in administrative offsets (resulting from costs
     questioned in prior audits) against PY 1999 JTPA funds. The correspondence states that
     the offsets were made against the PY 1998 (rather than PY 1999) JTPA funds transferred
     to WIA. However, the closeout does not reflect a reduction of the PY 1998 or PY 1999
     obligations, nor does it reduce the amount reported as transferred to WIA. Therefore, we
     were unable to determine that administrative offsets were made in accordance with DOL
     instructions.

4.   Determine if amounts reported on final cost reports or on the closeout package were
     supported by the State==s accounting records.

     JTPA financial transactions were recorded in the Florida Accounting Information
     Resource (FLAIR) system, the State=s official accounting and budgetary control system.
     We found that expenditures recorded in the accounting records (FLAIR) differed

                                              6
substantially from those reported on the FSRs and the final closeout package. Differences
were identified for expenditures charged to the JTPA program, as well as expenditures
charged against JTPA grant funds transferred to WIA. The differences are as follows:

       Funding                  Expenditures    Expenditures     Closeout (Over)
       Period         Program   Per FLAIR       Per Closeout     Under FLAIR

       FY 97           JTPA     $ 37,303,245    $ 37,105,802     $       197,443
       PY 97/FY 98 JTPA          123,665,227     126,841,631         (3,176,404)
       PY 98           JTPA       77,698,303      78,862,750         (1,164,447)
       PY 99 (IIB/C) JTPA                 0        7,918,469         (7,918,469)
         Subtotal               $238,666,775    $ 250,728,652    $(12,061,877) (1)
       PY 99 (IIID)    JTPA        2,090,728    (not reported)


       Total JTPA               $240,757,503


       Funding                   Expenditures     Expenditures     FSRs (Over)
       Period         Program    Per FLAIR         Per FSRs       Under FLAIR

       FY 97            JTPA    $ 37,303,245      $ 29,899,107       $    7,404,138
       PY 97/FY 98      JTPA     123,665,227       126,275,102           (2,609,875)
       PY 98            JTPA      77,698,303        71,914,629            5,783,674
       PY 99 (IIID)     JTPA       2,090,728         2,213,062            (122,334)
        Subtotal JTPA           $240,757,503      $230,301,900       $ 10,455,603      (1)
       PY 98            WIA        1,209,227        22,080,227        (20,871,000)
       PY 99            WIA      117,626,864       114,074,242            3,552,622
        Subtotal WIA            $118,836,091      $136,154,469       $(17,318,378)


       Total DOL Grants         $359,593,594      $366,456,369       $ (6,862,775) (1)


(1) The differences calculated are based on total FLAIR expenditures inclusive of
“transfer” accounts. These accounts are discussed further at procedure 7 and in OIG
comments that begin on page 13 of this report.

While WIA funds were not within the scope of this engagement, the trial balances and
worksheets provided by the State included both JTPA and WIA activity. The WIA data
are presented in this report because any subsequent reconciliation of the variances
identified above should encompass expenditures for the entire JTPA grant, including the
portion transferred to WIA.




                                          7
5.   Select a sample of 10 final closeout reports submitted by subrecipients to the State,
     and determine if the subrecipients’ final JTPA expenditures were accurately
     recorded in the State’s accounting records.

     We asked State officials to provide subrecipient closeout packages or final financial
     reports. We were informed that the State was unable to locate the subrecipient records
     requested, and accordingly, we were unable to perform this procedure.

6.   If differences were noted between the State==s accounting records and reported JTPA
     expenditures, identify potential reasons for the differences and/or lack of sufficient
     reconciliations.

     Due to the differences between the accounting records and the financial reports, we made
     inquiries as to the process used to prepare FSRs and whether reconciliations of recorded
     and reported expenditures had ever been performed. We were informed that FSRs were
     prepared from various sources of data, such as FMTS and other off-ledger records, and
     were not prepared from the FLAIR. We also were informed that reconciliations of costs
     reported to DOL with those recorded in the FLAIR were not performed. The State had
     cut back on the staff assigned to account for JTPA activities, and only one individual
     remained on a part-time basis.

     As discussed in procedure 7, the State=s single audits have repeatedly identified similar
     differences for prior years’ JTPA grants, but corrective actions were never implemented.

     Management indicated to us and to the State auditors, that reconciliations between the
     accounting records and the expenditure reports submitted to DOL have not been
     completed due to lack of staff, reorganization and other pressing priorities.

7.   Scan the reported data and the data recorded in the State==s accounting records, and
     determine if there are any unusual items that would require that additional
     procedures be performed.

     As noted above, data reported to ETA on final FSRs and the closeout package did not
     reconcile to the FLAIR, and reported amounts changed significantly between final FSRs
     and the closeout package. In addition to these discrepancies, we noted accounts listed on
     the FLAIR trial balances called Atransfers.@ The amounts recorded in the transfer
     accounts (total of $17.9 million) carried debit balances and were included in the
     expenditure amounts reported on the FSRs. Transfer accounts included the following:
     Federal Funds Transfer, Transfer to Agency, Transfer to Trust, Transfer to Other Agency,
     Transfer to State O/H. Based on the data provided, we were unable to determine the
     nature of charges recorded in these transfer accounts.

     Under JTPA, states were allowed to transfer funds between certain JTPA titles, within
     established parameters. For example, a grantee could transfer funds from the dislocated
     workers program (Title III) to the adult program (Title II A). We compared amounts


                                             8
     recorded in the AFederal Funds Transfer@ accounts to JTPA transfers on the FSRs to
     determine if these accounts were used to record inter-title transfers.

     We noted the following:

                                Total           Less:          FLAIR           Transfers
                               FLAIR           Other          AFederal@       Reported Per
                              Transfers       Transfers       Transfers           FSRs       Difference


          FY 97 II-B          $           0   $           0 $             0 $ (7,206,695)    $ (7,206,695)

          PY 97 II/III            8,300,908       1,753,628     6,547,280       7,206,695         659,415

          FY 98 II-B                      0               0               0    (4,765,305)     (4,765,305)
          PY 97 Title III D             67              67                0             0                 0
          PY 98 II/III            9,594,912        544,332      9,050,580       4,765,305      (4,285,275)

          Total               $17,895,887     $2,298,027 $15,597,860 $                  0    $(15,597,860)


     Based on the differences noted, we were unable to conclude that the AFederal@ transfers
     recorded in FLAIR were JTPA inter-title transfers. FLAIR transfer amounts did not agree
     to inter-title transfers reported on FSRs, and did not sum to zero (i.e., for inter-title
     transfers, an increase to one title should be reflected as a decrease to another title). If
     these JTPA funds were not transferred to another JTPA title, the question remains, where
     were the funds transferred, and did these amounts represent allowable JTPA grant
     expenditures?

     If the FLAIR transfers were not for allowable JTPA expenditures, the difference between
     total expenditures reported on the closeout and JTPA expenditures recorded in the
     FLAIR, identified at procedure 4 as $12,061,877, would increase by $17,895,887 (the
     amount recorded in the transfer accounts). This would result in approximately $30
     million reported on the closeout that was not supported by the accounting records.

8.   Inspect the single audit reports submitted for the State beginning in 1997, and
     determine if there were reportable conditions, material weaknesses, report
     qualifications, or any other audit issues pertaining to JTPA grants that remain
     unresolved.

     Florida’s annual single audit reports included numerous findings regarding JTPA grants,
     which were not resolved, some of which were identified as material weaknesses.
     Although these findings were reported several years ago, corrective actions were not yet
     implemented. The following is a summary of relevant audit findings in Florida’s single
     audit reports:

     A.       In the 1999 single audit report, the auditors reported that expenditure data
              recorded on JTPA cost reports did not always agree with information recorded in
              the FLAIR, the State=s official accounting and budgetary control system. The

                                                        9
     auditors identified differences in JTPA expenditures for the 1995 and 1996 final
     cost reports, reported to DOL in October 1998. The auditor stated that amounts
     reported on cost reports were based on costs recorded in the FLAIR, expenditure
     reports submitted by other State agencies, and other non-FLAIR systems such as
     the FMTS. The auditor stated that notwithstanding the different sources of the
     expenditure data reported on the ETA reports, the final expenditure data reported
     for a grant award should be substantiated by the FLAIR, which is the State=s
     official accounting system.

     The auditors concluded that the accounting system over grant expenditures was
     deficient and considered to be a material weakness in the State=s system of internal
     controls. This finding resulted in a qualified opinion on compliance for the JTPA
     cluster programs. The auditor recommended that the State perform timely
     reconciliations of amounts reported as final expenditures on applicable Federal
     reports to expenditures recorded in the FLAIR system.

     The FY 2000 report updated the FY 1999 finding and indicated that revised
     reports were submitted for PY 1995 and PY 1996 JTPA grants. However, the
     amounts reported still differed from the amounts recorded in the FLAIR.

     The State auditors noted similar findings in prior audits (1998 and 1997). These
     audits also indicated that costs reported to DOL for prior program years did not
     agree with costs recorded in FLAIR, and that the costs had not been reconciled.
     Therefore, the 1999 and 1998 single audits concluded that prior year reporting
     deficiencies were not being corrected.

B.   According to the FY 2000 single audit report, grant accounting continued to be
     deficient. The report includes numerous reportable conditions and material
     weaknesses for other DOL programs, some of which are similar to those noted
     above for JTPA grants. For example, one finding indicated that grant accounting
     procedures were found to be deficient and differences were noted between the
     FLAIR system and the cost reports submitted to DOL. These discrepancies had
     been noted in prior audits and continued into the FY 2000 reporting period. The
     auditor concluded that Florida could not demonstrate proper accountability for
     Federal funds to provide grantor agencies assurance that Federal funds are drawn
     from appropriate Federal awards, drawn only as needed to meet immediate
     disbursement needs, and utilized for appropriate activities. The auditor refers to
     differences between the funds reported to the granting agencies and the amounts
     recorded in the State’s records.

C.   In the FY 1997 single audit report, the auditors reported that funds drawn down by
     the State could not be correlated with the expenditure of such funds, and
     consequently, the State could not demonstrate compliance with the CMIA. The
     FY 1999 audit report indicated that this prior year finding had not been corrected
     and that the cash management practices and systems used to draw Federal funds
     were considered to have material weaknesses.

                                      10
      D.     In the FY 1997 single audit, the auditors reported that $6.6 million of equipment
             purchased by the State, and charged to JTPA, was being shared by other programs
             and that the State did not have a method of allocating the costs of the computers
             to the programs that are benefiting from their use.

      E.     In the FY 1999 single audit, the auditors reported that the Division charged $3.3
             million of salary and wage costs based on budgeted allocations rather than actual
             costs. This system of allocating costs based on budgeted amounts was not
             approved by the DOL, and the related charges were not considered to be allowable
             program costs. The FY 2000 report provided an update to this finding and
             indicated that the State continued to allocate salary costs without an appropriate
             allocation plan.

      F.     In the FY 2000 single audit report, the auditor reported that the Florida
             Department of Labor and Employment Security did not prepare an indirect cost
             rate proposal for FY 1999 and FY 2000. According to management’s response, a
             plan was subsequently submitted to the DOL for FY 1999, but the FY 2000 plan
             was still pending. This finding affected many DOL programs, including the JTPA
             program cluster.

      These audits indicated that there were material weaknesses in the State’s cash
      management practices and in its grant accounting. However, the State’s auditors
      informed us that none of these findings have been fully resolved.

9.    From the single audit reports, identify the JTPA expenditures reported on the
      Schedule of Expenditures of Federal Awards and determine if the amounts agree or
      were reconciled by the single auditors to the expenditures recorded in the
      accounting records.

      This procedure was not performed due to the deficiencies noted in this report and those
      noted in the State’s single audit reports, as presented above, regarding the unreconciled
      differences between the State=s accounting records and reported JTPA expenditures.

10.   Obtain the final cost reports submitted by two subrecipients and determine if the
      amounts reported are supported by the subrecipients’ accounting records.

      We visited two subrecipients, Okaloosa Walton Jobs and Education Partnership, Inc., and
      Polk County Workforce Development Board Inc and obtained JTPA final reports
      submitted to the State. In both cases, we found that final JTPA expenditures reported to
      the State reconciled to amounts recorded in the subrecipient’s accounting records.




                                              11
11.   Obtain the single audit reports for two subrecipients and identify the JTPA
      expenditures reported on the Schedule of Expenditures of Federal Awards.
      Determine if the amounts agree or were reconciled by the single auditors to the
      expenditures recorded in the accounting records.

      We obtained single audit reports for the two subrecipients selected (FY 1998 through
      most recent report issued), and compared reported JTPA program expenditures to
      expenditures recorded in the accounting records. In both cases, reported JTPA
      expenditures reconciled to the accounting records.

12.   Inspect the single audit reports submitted for the subrecipients, and determine if
      there were reportable conditions, material weaknesses, report qualifications, or any
      other audit issues pertaining to JTPA grants that remain unresolved.

      We obtained the single audit reports for the two subrecipients (most recent report issued).
       The reports did not include any unresolved reportable conditions, material weaknesses,
      qualifications or other audit issues related to the JTPA program.




                                              12
           STATE OF FLORIDA’S RESPONSE AND AUDITOR’S COMMENTS


State of Florida’s Response

The Florida Agency for Workforce Innovation provided a written response to our draft report,
dated November 18, 2002, which is included in its entirety at Exhibit I. In general, the State
disagreed with the information presented in the report, and indicated that the information used
for this report was not complete or accurate. The key points were:

   1. The State indicated that the system used to prepare the FSRs was a contracts and grants
      subsidiary ledger, which contains information not included in the FLAIR. According to
      the State, certain transactions processed for JTPA grants were not “updated” in the
      FLAIR and the State is currently in the process of reconciling the two systems. The State
      also listed FSR information that differed from the FSR data presented in this report. In
      general, they concluded that the wrong information was used for our procedures, and that
      “the use of two different source documents has led to separate and distinct conclusions.”
      The State also indicated that most of the Workforce Boards have been requested to
      submit copies of the final JTPA closeouts, and that a number of closeouts are now
      available for review.

   2. The State indicated that Title FY IIB funding was closed out and accounted for with the
      PYs 1994, 1995 and 1996 closeout, and should not have been included in our closeout
      evaluation. They also indicated that the $7.2 million transferred from FY 97 IIB went to
      PY 96 IIC, and that other inter-title transfers were not accurately presented in our report
      for various titles and funding periods.

   3. The State indicated that there were no “transfer” accounts recorded in FLAIR associated
      with WIA or JTPA programs.

   4. The State indicated that some of the differences between the FSRs and the closeout were
      because certain amounts were originally reported as WIA costs that should have been
      reported as JTPA costs.

Auditor’s Comments

Our agreed-upon procedures were performed using the documents provided to us by the State in
response to our data requests. These included final FSRs, trial balances generated from the
State’s official accounting system (FLAIR), and various other documents provided by State
representatives. (We also obtained copies of the final FSRs on file with ETA.) The State now
indicates we used incorrect data in our procedures, and that other documents exist which would
provide different results. However, we can only report based on the documents provided by the
State, and cannot comment on any other documents or FSRs that the State makes reference to in
its response. We were forthcoming with the State as to the data needed to complete these
procedures, and the State had ample opportunity to assemble and provide all relevant data.


                                                13
As to the State’s remarks that “the Agency is in the process of reconciling the general ledger
[FLAIR] to the subsidiary ledger and will adjust the FSRs accordingly,” we have two comments.
 First, the State’s remarks essentially admit that even though a final closeout was submitted to
ETA, the final JTPA costs are still not known and further adjustments may be necessary once the
records are reconciled. Second, the State’s single auditors have reported since FY 1998 that
amounts recorded in FLAIR did not agree to amounts reported to ETA. Since that time the State
has assured the auditors that a reconciliation of the FLAIR was under way which would ensure
the accuracy and completeness of FLAIR and FSR data. The following is a quote from the
State’s response to the FY 1998 single audit report, “The reconciliation project is on-going to
correct these entries, but due to vacancies in the Fiscal Unit, the problem has not been fully
corrected. . . . the reconciliation will be completed in conjunction with the transition close-out of
JTPA currently scheduled for December 30, 1999” (corrective action plan page 4-51, dated June
1, 1999). We contend that sufficient time has elapsed to update the FLAIR and to ensure that all
JTPA activities are accurately recorded therein, and that such an update should have transpired
prior to submitting a final cost certification to ETA.

With regard to the State’s contention that the FY 97 IIB funding should not be included in the
scope of these procedures, we note that these funds were reported by the State on the current
closeout package, and, accordingly, are included in the scope of these procedures. The prior
closeout to which the State refers did not include these funds. Rather, it included only the PY 96
IIA, IIC, and IIIF funding associated with the PY96/FY97 grant. In addition, contrary to the
State’s response, the final FSRs included with the prior closeout do not reflect a $7.2 million
transfer from FY 97 IIB to PY 96 IIC. Rather, those FSRs only indicate transfers of $1.8 million
from FY 96 IIB to PY 96 IIC. Based on our inspection of the final FSRs submitted with the
current and prior closeouts, we maintain that this report accurately reflects inter-title transfers for
all funding, as reported to ETA.

With regard to the State’s contention that there were no official “transfer” accounts recorded in
FLAIR for the JTPA program, we note that these account titles and corresponding balances were
listed on the FLAIR trial balances provided by the State, in response to our data requests. For
example, the trial balance provided for PY 97 Title IIA 5 percent funds reflects account number
75600, “Federal Funds Transfers Out to Other Agencies, CF Tr/Dept Elder Affairs,” with a debit
balance of $443,357. This balance was included in the PY 97/FY 98 “Expenditures Per FLAIR”
amount presented at procedure 4 of this report. If the State contends that the “transfer” accounts
should not be included in our procedures, the “Expenditures Per FLAIR” amount presented at
procedure 4 would decrease, and the corresponding differences between expenditures recorded in
FLAIR and those reported on the closeout would increase, as follows:

       Expenditures per FLAIR reported at procedure 4                  $238,666,775
       Less: total amounts recorded in “transfer” accounts              (17,895,877)
       Expenditures per FLAIR, excluding “transfer” accounts            220,770,898
       JTPA expenditures reported per closeout                          250,728,652
       Difference                                                      $ 29,957,640

This difference represents expenditures reported on the JTPA closeout in excess of actual
expenditures recorded in FLAIR, excluding the “transfer” accounts.

                                                  14
Finally, with regard to the WIA funding, there should be no confusion as to whether expenditures
incurred were WIA costs or JTPA costs, as they are two separate and distinct programs.
Nevertheless, the State’s comments support our statement that any subsequent reconciliation of
actual and reported expenditures should include both JTPA and WIA expenditures.




                                              15
EXHIBIT I – COMPLETE TEXT OF THE STATE OF FLORIDA’S RESPONSE
    !
!
!
!
!
!
!




    !
!
!
!
!
!




    !
!
!
!
!




    !
!
!
!
!
!




    !
!
!
!




    !
!
!
!
!
!
!
!




    !
!
!




    !
!
!
!
!
!
!




    !
!
!
!
!
